Report No. IG-06-018

EXECUTIVE SUMMARY

An internal audit of an Office of Inspector General confidential fund found that fund
custodians had properly accounted for monies provided to and disbursed from the funds
and properly reconciled their cash on-hand with the amounts recorded. However, we
identified the need for improvement in several areas. Management concurred with three
of our four recommendations. As a result, a detailed analysis of projected fund needs
will be submitted on an annual basis; custodians’ submission of fund records in a timely
manner will be ensured; and use of GSA-approved safes at all field locations will also be
ensured.

This report contains information that is not releasable to the general public.
